FOR IMMEDIATE RELEASE                                            September 10, 2013
Media Contact: 202-565-3908

        MIAMI BUSINESSWOMAN SENTENCED IN SCHEME TO DEFRAUD
            THE EXPORT-IMPORT BANK OF THE UNITED STATES

WASHINGTON, DC – The Office of Inspector General (OIG) for the Export-Import
Bank of the United States (Ex-Im Bank) announced today that Teolinda Briseyda
Angeles, an owner of an electronics company in Miami, Florida, was sentenced to
serve one year and one day in prison for her role in a scheme to defraud Ex-Im Bank
of nearly $446,876.
Judge Donald L. Graham in U.S. District Court in Miami, Florida also sentenced
Angeles to three years of supervised release and ordered her to pay $446,875.83 in
restitution and $1,384,666 in criminal forfeiture. Angeles pleaded guilty on June 26,
2013, to one count of conspiracy to commit wire fraud and one count of wire fraud
in connection with a scheme to defraud Ex-Im Bank of approximately $446,876.
Angeles was born in Peru and is a lawful permanent resident of the United States.
Angeles’ sentencing is part of an ongoing OIG investigation into a network of export
credit insurance fraud schemes involving exports into South America which, to date,
has resulted in criminal charges against seven defendants, seven convictions, and
almost $15 million in court ordered criminal forfeiture and restitution. One fugitive
had fled to Argentina where he was captured in December of 2011 and is awaiting
extradition back into the United States.
According to court documents, Angeles was the owner of BNB Pembroke Pines, Inc.,
a computer and electronics company located in Miami that purported to be in the
business of exporting computers and electronic equipment to buyers in South
America. According to court records, Angeles admitted that she and co-conspirators
created false invoices, shipping documents, financial statements, and other
documents that were submitted to a Miami finance company. The false documents
were ultimately submitted to Ex-Im Bank to insure the financial transaction.
Angeles admitted that, in fact, none of the merchandise was exported. Angeles
received a total of $1,384,666 in Ex-Im insured loan proceeds and ultimately
defaulted on her loan, causing a loss to Ex-Im Bank and the U.S. government of
$446,876.
The case was prosecuted by the Fraud Section of the U.S. Department of Justice
Criminal Division and investigated by the Ex-Im Bank OIG. Significant assistance in
this ongoing investigation is being provided by INTERPOL in Washington, D.C. and
the Department of Justice, Office of International Affairs.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S.
jobs by filling gaps in private export financing. Ex-Im Bank provides a variety of



                  811 Vermont Avenue, NW Washington, D.C. 20571
financing mechanisms, including working capital guarantees, export-credit
insurance, and financing to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations. Additional
information about the OIG can be found at www.exim.gov/oig. Complaints and
reports of waste, fraud, and abuse related to Ex-Im Bank programs and operations
can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at
IGhotline@exim.gov.
                                       ###




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
